No. _____
In the Supreme Court of the United States
__________________
HYUNG JIN “SEAN” MOON,
Petitioner,
v.
HAK JA HAN MOON, HOLY SPIRIT ASSOCIATION FOR
THE UNIFICATION OF WORLD CHRISTIANITY, FAMILY
FEDERATION FOR WORLD PEACE AND UNIFICATION
INTERNATIONAL, HYO YUL KIM, “PETER”, DOUGLAS
D.M. JOO, CHANG SHIK YANG, KI HOON KIM, MICHAEL
W. JENKINS, MICHAEL BALCOMB, FARLEY JONES,
ALEXA WARD, JOHN DOES 1-6,
Respondents.
__________________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________
AARON M. HERZIG
Counsel of Record
JONATHAN G. POLAK
LYNN ROWE LARSEN
SPENCER S. COWAN
TAFT STETTINIUS & HOLLISTER LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
Phone: (513) 357-8768
Fax: (513) 381-0205
aherzig@taftlaw.com
April 5, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether there is an exception to this Court’s
ecclesiastical abstention doctrine that allows courts to
resolve disputes over whether control of a religious
organization was improperly taken through tortious
conduct (a “fraud or collusion exception”)?

ii
PARTIES TO THE PROCEEDING
Petitioner (appellant below) is Hyung Jin “Sean”
Moon, an individual.
Respondents (appellees below) are Hak Ja Han
Moon, Holy Spirit Association for the Unification of
World Christianity, Family Federation for World Peace
and Unification International, Hyo Yul Kim, Douglas
D.M. Joo, Chang Shik Yang, Ki Hoon Kim, Michael W.
Jenkins, Michael Balcomb, Farley Jones, Alexa Ward,
and John Does 1–6.

iii
STATEMENT OF RELATED PROCEEDINGS
Moon v. Moon, No. 20–168 (2d Cir.) (opinion issued and
judgment entered Nov. 5, 2020).
Hyung Jin Moon v. Hak Ja Han Moon, No. 19-cv-1705NRB (S.D.N.Y.) (order granting motion to dismiss
issued Dec. 19, 2019).
Holy Spirit Ass’n for the Unification of World
Christianity v. World Peace & Unification Sanctuary,
Inc., No. 3:18-cv-01508-JPW (M.D. Pa.) (pending).
Family Fed’n for World Peace v. Hyun Jin Moon, 2011CA-003721 (D.C. Super. Ct.) (pending).

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
CONSTITUTIONAL PROVISION INVOLVED . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
A. Factual Background . . . . . . . . . . . . . . . . . . . . 4
1. Rev. Moon appoints Sean Moon as the
future leader of the Unification Church . . . 5
2. After Rev. Moon dies in 2012, Family
Federation officials begin their scheme to
remove Mr. Moon from all leadership
positions . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
3. Mr. Moon exposes corruption at the
Family Federation and faces further
retaliation . . . . . . . . . . . . . . . . . . . . . . . . . . 7
4. With no authority to do so, Hak Ja Han
installs herself as leader of the Family
Federation . . . . . . . . . . . . . . . . . . . . . . . . . 8
B. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . 8

v
1. The District Court’s Decision. . . . . . . . . . . 8
2. The Second Circuit’s Decision . . . . . . . . . 10
REASONS FOR GRANTING THE PETITION . . . 10
I. This Court should grant the petition to resolve
whether allegations of fraud or other tortious
conduct within a religious organization warrant
exercising jurisdiction. . . . . . . . . . . . . . . . . . . . . 11
A. The ecclesiastical abstention doctrine is not
absolute, and a blunt application of that rule
would often result in injustice and
lawlessness . . . . . . . . . . . . . . . . . . . . . . . . . . 12
B. Resolving allegations of fraud or other
tortious conduct outweighs competing First
Amendment interests and supports the
exercise of jurisdiction. . . . . . . . . . . . . . . . . . 13
C. Uncertainty abounds among the lower courts
because this Court has never held whether
the fraud-or-collusion exception exists . . . . . 15
D. Mr. Moon’s allegations of tortious conduct
support exercising jurisdiction, and the
Second Circuit erred by treating the fraudand-collusion exception as an afterthough . . . 18
E. This fundamentally secular dispute presents
none of the doctrinal questions that
commonly warrant ecclesiastical abstention
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

vi
APPENDIX
Appendix A Summary Order in the United States
Court of Appeals for the Second Circuit
(November 5, 2020). . . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court Southern
District of New York
(December 19, 2019) . . . . . . . . . . App. 10
Appendix C Judgment in the United States
District Court Southern District of
New York
(December 20, 2019) . . . . . . . . . . App. 45
Appendix D First Amended Complaint in the
United States District Court for the
Southern District of New York
(June 14, 2019) . . . . . . . . . . . . . . App. 47

vii
TABLE OF AUTHORITIES
CASES
Ambellu v. Re’ese Adbarat Debre Selam Kidist
Mariam, 387 F. Supp. 3d (D.D.C. 2019) . . . 15, 16
Askew v. Trs. of Gen. Assembly of Church of the
Lord Jesus Christ of the Apostolic Faith, Inc.,
684 F.3d 413 (3d Cir. 2012) . . . . . . . . . . . . . . . . 17
Bell v. Presbyterian Church (U.S.A.),
126 F.3d 328 (4th Cir. 1997). . . . . . . . . . . . . . . . 18
Crowder v. Southern Baptist Convention,
828 F.2d 718 (11th Cir. 1987). . . . . . . . . . . . . . . 15
Episcopal Diocese of Fort Worth v. Episcopal Church,
602 S.W.3d 417 (Tex. 2020) . . . . . . . . . . . . . . . . 12
Family Fed’n for World Peace v. Hyun Jin Moon,
2011-CA-003721 (D.C. Super. Ct.) . . . . . . . . . . . 21
Gonzales v. Roman Catholic Archbishop of Manila,
280 U.S. 1 (1929). . . . . . . . . . . . . . . . . . . . . . . . . 14
Holy Spirit Ass’n for the Unification of World
Christianity v. World Peace & Unification
Sanctuary, Inc., No. 3:18-cv-01508-JPW
(M.D. Pa.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Hutchinson v. Thomas,
789 F.2d 392 (6th Cir. 1986). . . . . . . . . . . . . . . . 15
Jones v. Wolf,
443 U.S. 595 (1979). . . . . . . . . . . . . . . . . . . . 12, 14

viii
Kaufmann v. Sheehan,
707 F.2d 355 (8th Cir. 1983). . . . . . . . . . . . . . . . 18
Kedroff v. Saint Nicholas Cathedral of Russian
Orthodox Church in N. Am.,
344 U.S. 94 (1952). . . . . . . . . . . . . . . . . . . . . . . . 12
McRaney v. N. Am. Mission Bd. of the Southern
Baptist Convention, Inc., 966 F.3d 346
(5th Cir. 2020), petition for cert. filed,
(U.S. Feb. 23, 2021) . . . . . . . . . . . . . . . . . . . . . . 13
Presbyterian Church in U.S. v. Mary Elizabeth Blue
Hull Mem. Presbyterian Church,
393 U.S. 440 (1969). . . . . . . . . . . . . . . . . . . . 12, 16
Puri v. Khalsa,
844 F.3d 1152 (9th Cir. 2017). . . . . . . . . . . . . . . 16
Serbian E. Orthodox Diocese for U.S. & Can.
v. Milivojevich, 426 U.S. 696 (1976). . . . . . passim
Watson v. Jones,
80 U.S. 679 (1871). . . . . . . . . . . . . . . . . . 11, 20, 21
Young v. N. Ill. Conf. of United Methodist Church,
21 F.3d 184 (7th Cir. 1994). . . . . . . . . . . . . . . . . 18
CONSTITUTION AND STATUTES
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . . . . . . 4
18 U.S.C. § 1962(b). . . . . . . . . . . . . . . . . . . . . . . . . . . 9
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
PETITION FOR A WRIT OF CERTIORARI
Hyung Jin “Sean” Moon respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Second Circuit and
resolve a vital question about the scope of this Court’s
ecclesiastical abstention doctrine.
This case involves a dishonest scheme to plunder an
organization’s resources, improperly remove Mr. Moon
as the organization’s leader, and retaliate against Mr.
Moon for daring to expose this wrongdoing. In any
other context, courts would exercise jurisdiction to
resolve claims arising from that misconduct. But
because one of the organizations at issue—the
Unification Church—is religious, the trial court found
that it lacked jurisdiction under the ecclesiastical
abstention doctrine, without even allowing minimal
discovery, and the Second Circuit affirmed on similar
grounds.
This Court created the ecclesiastical abstention
doctrine to protect the First Amendment right to free
exercise of religion from improper interference by the
judicial branches of federal and state governments.
This Court has suggested—but never held—that an
exception to the ecclesiastical abstention doctrine may
exist for claims involving what it has labeled “fraud or
collusion”—i.e., fraud, torts, and conspiracies to commit
those wrongful acts.
And almost every federal
appellate court has acknowledged this Court’s
reference to a possible fraud exception. But none have
exercised jurisdiction under that exception, out of
uncertainty whether it exists.

2
Because this Court has not explicitly created an
exception for fraud or collusion, the ecclesiastical
abstention doctrine had the opposite of its intended
effect here—and in many other scenarios involving
grievous fraudulent and tortious conduct within a
religious organization. Without a formal exception, the
doctrine disadvantages religious organizations,
depriving them of a neutral forum to resolve
allegations of fraud or other tortious conduct that
threaten their existence. Rather than protect the free
exercise of religion, the doctrine—as applied
here—protects those who seek to destroy how others
practice their religion.
To be sure, this Court has recognized that
leadership disputes within long-established religious
organizations—which have developed bureaucracies,
bodies of law, and methods of adjudicating
conflicts—are best resolved outside of court. But the
facts that commonly warrant ecclesiastical abstention
are not present here. First, no party has asked a court
to interpret or apply religious doctrine to resolve a
claim or defense. There is no doctrine that would
resolve this fundamentally secular dispute. Second,
parties on all sides here have repeatedly asked federal
courts to resolve disputes arising from the death of the
Unification Church’s founder and only leader, Rev. Sun
Myung Moon (“Rev. Moon”). Put simply, the parties
have nowhere else to resolve these disputes—other
than court.
A formal exception to the ecclesiastical abstention
doctrine—permitting jurisdiction in cases of fraud or
dishonest, tortious conduct—would have allowed the

3
courts to consider the merits of Mr. Moon’s claims, as
any court would in any other circumstance. Instead,
the trial court reflexively dismissed Mr. Moon’s
complaint, and the Second Circuit affirmed that
decision, simply because the subject matter of the
dispute is religious. In doing so, the lower courts
permanently deprived Mr. Moon of a judicial forum to
resolve the misconduct within the Unification
Church—and permanently immunized the wrongdoers
from civil liability.
Ecclesiastical abstention is a Court-made doctrine,
so only this Court can define its nature and scope; only
this Court can create exceptions; only this Court can
give religious actors the judicial tools they need to
protect their religious organizations from fraud or
other tortious conduct. This Court should revisit and
refine its ecclesiastical abstention doctrine by formally
recognizing an exception for cases like this one
involving fraud or other tortious conduct within a
religious organization.
OPINIONS BELOW
The Second Circuit’s opinion, Moon v. Moon, 833 F.
App’x 876 (2d Cir. 2020), appears in the Appendix
(“Pet. App.”) at Pet. App. 1. The opinion of the United
States District Court for the Southern District of New
York, Hyung Jin Moon v. Hak Ja Han Moon, is
reported at 431 F. Supp. 3d 394 (S.D.N.Y. 2019), and
appears at Pet. App. 10.

4
JURISDICTION
The Second Circuit entered judgment on November
5, 2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof . . . .
U.S. Const. amend. I.
STATEMENT OF THE CASE
A. Factual Background
This case arises from fraudulent and other
dishonest, tortious conduct within the Unification
Church (also called the Family Federation for World
Peace and Unification International (“Family
Federation”)), a global religious organization that Rev.
Moon founded in 1954.1 Pet. App. 11. From its
founding until 2012, the Family Federation had one
leader: Rev. Moon. Id. at 62. Rev. Moon held complete
control of the Family Federation—so much so that the
Family Federation never developed corporate
documents stating a formal leadership structure or a

1

The Unification Church is registered in South Korea under the
name Family Federation for World Peace and Unification
International (“Family Federation”). Family Federation is the
parent organization of all Unification Church affiliates worldwide.
The Unification Church’s United States affiliate, a California
nonprofit, is registered as Holy Spirit Association for the
Unification of World Christianity (“HSA-UWC (USA)”).

5
written succession plan. Id. at 69–70. Rev. Moon
exercised his power to appoint executives and board
members for all Family Federation-affiliated
organizations, including HSA-UWC (USA), Family
Federation’s United States affiliate. Id. at 62. And
Rev. Moon possessed the unilateral authority to
appoint and remove officials within the Family
Federation and its affiliates. Id. His practice of handselecting executives and board members was
longstanding and unchallenged. In effect, that practice
became official policy.
1. Rev. Moon appoints Sean Moon as the
future leader of the Unification Church.
Rev. Moon knew his time on Earth was finite, so to
prepare the Family Federation for a new leader, he
appointed his son, Sean, to two key roles within the
Family Federation. First, in April 2008, Rev. Moon
named Mr. Moon the International President of the
Family Federation. Id. at 12. In that role, Mr. Moon
managed all Family Federation organizations while
continuing to serve under Rev. Moon’s direction. Id. at
61.
Second and more importantly, Rev. Moon
announced in January 2009 that Mr. Moon would
succeed him as leader of the Family Federation. Id. at
13. This irrevocable appointment was especially
significant because Rev. Moon had not identified his
successor. Id. at 62.
Rev. Moon and the Family Federation made Mr.
Moon’s appointment widely known. Id. at 13. In
January 2009, Rev. Moon confirmed Mr. Moon’s
appointment in three public ceremonies—one in the
United States and two in South Korea. Id. at 13,

6
62–64. Defendant Hak Ja Han Moon (“Hak Ja Han”),
Rev. Moon’s wife and Mr. Moon’s mother, attended all
three events and publicly supported Mr. Moon as Rev.
Moon’s successor to lead the Family Federation. Id. at
63. And in June 2010, Rev. Moon prepared and signed
a written proclamation, formally appointing Mr. Moon
as the successor and future leader of the Family
Federation. Id. at 63–64.
Mr. Moon’s appointment carried symbolic and
substantive legal meaning. The symbolic effect was
clear: Rev. Moon’s irrevocable appointment meant that
when he died, Mr. Moon would become the permanent
leader of the Family Federation. Mr. Moon also
received several ceremonial robes and crowns, and he
retains a vested right in that property. Id. at 65. But
the appointment also substantively changed Mr.
Moon’s role within the organization. Rev. Moon made
Mr. Moon an agent to the Family Federation—an
appointment Mr. Moon accepted. Id. at 64–65. Thus,
Mr. Moon had authority to act as the Family
Federation’s agent and to perform certain duties for the
Family Federation.
2. After Rev. Moon dies in 2012, Family
Federation officials begin their scheme
to remove Mr. Moon from all leadership
positions.
Soon after Rev. Moon’s death in 2012, his
irrevocable appointment of Mr. Moon came under
attack. Id. at 12. Hak Ja Han began a fraudulent,
dishonest scheme to accomplish three improper goals:
(1) remove Mr. Moon as the permanent leader of the
Family Federation; (2) install herself in Mr. Moon’s

7
place; and (3) misappropriate assets belonging to Mr.
Moon and the Family Federation. Id. at 66–68.
This scheme comprised several critical steps. Hak
Ja Han began by conspiring with Family Federation
senior officials to expel Mr. Moon as President of HSAUWC (Korea). Id. at 66. A Family Federation
administrator presented Mr. Moon with documents to
sign, deceiving Mr. Moon into believing that those
documents would not alter his role as permanent
successor to Rev. Moon. Id. Hak Ja Han then
orchestrated a vote by the HSA-UWC (USA) board to
remove Mr. Moon as president of HSA-UWC (USA). Id.
at 14.
3. Mr. Moon exposes corruption at the
Family Federation and faces further
retaliation.
Mr. Moon retained his role as International
President of the Family Federation—but not for long.
In January 2015, Mr. Moon exposed corruption within
the top ranks of the Family Federation, including that
certain officials were drawing excessive salaries and
benefits at the expense of the organizations they
purported to serve. Id. at 68. Family Federation
officials confronted Mr. Moon, telling him to acquiesce
to Hak Ja Han’s exercise of authority—even though she
lacked the authority to remove Mr. Moon or to install
herself in his place. Id. They also demanded that Mr.
Moon cease speaking publicly about the self-dealing
and corruption he exposed—at least until after Hak Ja
Han’s death—and promised that after Hak Ja Han
died, Mr. Moon could correct some of her misdeeds. Id.

8
Mr. Moon rejected this demand, continuing to
expose the officials’ improper conduct. He paid a price.
One month after Mr. Moon began to expose this
corruption, Family Federation officials retaliated by
suspending him as International President of the
Family Federation (even though they lacked authority
to do so). Id. at 69.
4. With no authority to do so, Hak Ja Han
installs herself as leader of the Family
Federation.
Although Rev. Moon’s appointment of Mr. Moon was
irrevocable—and went unchallenged while Rev. Moon
was alive—Hak Ja Han now claims to lead the Family
Federation. Id. at 71. Hak Ja Han and her coconspirators have manipulated the organization to
solidify her control. Id. And they have enriched
themselves with assets belonging to the Family
Federation and confiscated property belonging to Mr.
Moon, including ceremonial crowns and Rev. Moon’s
writings. Id. at 69. Hak Ja Han even contrived to
create what she claimed was a new “governing”
document for the Family Federation, the “Cheon Il Guk
Constitution”—a post-hoc attempt to legitimize her
effort to usurp Mr. Moon’s authority and defy Rev.
Moon’s irrevocable appointment. Id. at 16.
B. Proceedings Below
1. The District Court’s Decision
Mr. Moon sued Hak Ja Han, HSA-UWC (USA), the
Family Federation, eight individuals affiliated with the
Family Federation or HSA-UWC (USA), and six
unnamed defendants, in the Southern District of New

9
York, filing an amended complaint in June 2019. Id. at
47. Mr. Moon sued for: (1) a declaration that he is Rev.
Moon’s appointed successor and leader of the Family
Federation; (2) a declaration that Hak Ja Han’s Cheon
Il Guk constitution is a legal nullity; (3) breach of
fiduciary duty against Hak Ja Han; (4) breach of
fiduciary duty against seven individual defendants who
were directors of HSA-UWC (USA); (5) tortious
interference with a business relationship against all
defendants; (6) breach of agency agreement against
Hak Ja Han and the Family Federation; (7) breach of
fiduciary duties, unjust enrichment, and constructive
trust against all defendants; (8) defamation against
Hak Ja Han and the Family Federation; (9) violations
of the Racketeer Influenced and Corrupt Organizations
Act, 18 U.S.C. § 1962(b), against all defendants; and
(10) violations of New York’s whistleblower protection
law against all defendants. Id. at 73–102. Mr. Moon
also sought a constructive trust on all assets belonging
to the Family Federation and the Unification Church,
as well as an accounting of the assets that he once
controlled as leader of the Family Federation. Id. at
102.
The district court granted Defendants’ motion to
dismiss with prejudice, applying the ecclesiastical
abstention doctrine and holding that it could not decide
any of Mr. Moon’s claims without resolving an
underlying religious controversy. Id. at 45–46. Mr.
Moon appealed that decision to the Second Circuit,
which affirmed on modified grounds.

10
2. The Second Circuit’s Decision
The Second Circuit affirmed the trial court’s
dismissal of Mr. Moon’s defamation and tortious
interference claims on statute of limitations grounds.
Id. at 7. And it affirmed the trial court’s dismissal of
Mr. Moon’s claim under New York’s whistleblower
protection statute for failure to state a claim. Id. at 8.
As to the remaining claims, the Second Circuit affirmed
the trial court’s dismissal for lack of subject matter
jurisdiction under the ecclesiastical abstention
doctrine. Id. at 7. It refused to apply an exception for
fraud, collusion, or other tortious conduct.
REASONS FOR GRANTING THE PETITION
This case presents an unresolved question about the
scope of this Court’s ecclesiastical abstention
doctrine—specifically, whether courts may resolve
allegations of “fraud and collusion” within a religious
organization. The ecclesiastical abstention doctrine
generally instructs courts to avoid scrutinizing matters
of church government and religious doctrine. But a
blunt, undiscerning application of ecclesiastical
abstention does no favors for the free exercise of
religion. Indeed, it can cause substantial injustice,
even inflicting the First Amendment harms that the
doctrine is intended to avoid, especially in cases like
this one involving fraud, collusion, and other tortious
conduct. Abstention immunizes individuals like Hak
Ja Han, who cloak their misdeeds under the guise of
religion. And it deprives plaintiffs like Mr. Moon of a
neutral, orderly forum to resolve a predominately
secular dispute. This Court should grant certiorari to
resolve whether courts must unhesitatingly abstain

11
from cases touching on religion, even when the plaintiff
alleges fraud or other tortious conduct.
I. This Court should grant the petition to resolve
whether allegations of fraud or other tortious
conduct within a religious organization
warrant exercising jurisdiction.
The First Amendment circumscribes the role that
civil courts can play in resolving religious disputes.
Because the Constitution precludes the government
from favoring one religious sect over another—or
endorsing a specific religious belief—courts generally
cannot pick winners and losers in a religious
controversy. The ecclesiastical abstention doctrine
created by this Court arises from that principle,
precluding judicial review of claims that turn on
“strictly and purely ecclesiastical” questions. Serbian
E. Orthodox Diocese for U.S. & Can. v. Milivojevich,
426 U.S. 696, 713 (1976) (citation omitted). And that
doctrine is jurisdictional: “civil courts exercise no
jurisdiction” over purely ecclesiastical matters. Watson
v. Jones, 80 U.S. 679, 733 (1871).
This doctrine exists for several important reasons.
First, the practical: “[c]ivil judges obviously do not have
the competence of ecclesiastical tribunals in applying
the ‘law’ that governs ecclesiastical disputes.”
Milivojevich, 426 U.S. at 714, n.8. Second, the
doctrine, emanating from the First Amendment’s Free
Exercise Clause, recognizes that questions of
“discipline, or of faith, or ecclesiastical rule, custom, or
law” are best left to the church. Id. at 710 (citation
omitted). Religious institutions must “decide for
themselves, free from state interference, matters of

12
church government as well as those of faith and
doctrine.” Kedroff v. Saint Nicholas Cathedral of
Russian Orthodox Church in N. Am., 344 U.S. 94, 116
(1952).
A. The ecclesiastical abstention doctrine is
not absolute, and a blunt application of
that rule would often result in injustice
and lawlessness.
While the First Amendment does not impose an
absolute barrier to jurisdiction in all disputes that
touch on religion, this Court has created only one
express exception—for property disputes. Presbyterian
Church in U.S. v. Mary Elizabeth Blue Hull Mem.
Presbyterian Church, 393 U.S. 440, 449 (1969) (“not
every civil court decision as to property claimed by a
religious organization jeopardizes values protected by
the First Amendment”); Jones v. Wolf, 443 U.S. 595,
597 (1979) (“[C]ivil courts, consistent with the First
and Fourteenth Amendments to the Constitution, may
resolve [church property] dispute[s] on the basis of
‘neutral principles of law.’”).2
The lack of other formal exceptions to the
ecclesiastical abstention doctrine means that tortious
conduct—not based on religious doctrine or
observance—goes unchecked. Indeed, this immunizes
religious leaders and organizations from all other kinds

2

State courts have also recognized that neutral principles of law
can resolve trust and property disputes—involving church
property, between separate religious groups—without flouting the
ecclesiastical abstention doctrine. See Episcopal Diocese of Fort
Worth v. Episcopal Church, 602 S.W.3d 417, 420 (Tex. 2020).

13
of suits and deprives their victims of a neutral judicial
forum. Far from impeding the free exercise of religion,
narrow judicial review is necessary in limited
circumstances to protect a religious organization and
its members from rogue actors bent on undermining
the organization. The current, nearly categorical
rule—one requiring abstention from all suits that touch
on religious leadership—leads to injustice or even
lawlessness. Writing in dissent, Justice Rehnquist,
joined by Justice Stevens, warned that complete,
unyielding deference to any church decision “bearing
the ecclesiastical seal” would convert the civil courts
“into handmaidens of arbitrary lawlessness.”
Milivojevich, 426 U.S. at 727 (Rehnquist, J.,
dissenting). And just last year, the Fifth Circuit
cautioned that a broad application of the ecclesiastical
abstention doctrine could be put to misuse, explaining
that “religious entities could effectively immunize
themselves from judicial review of claims brought
against them,” all before either party took discovery.
McRaney v. N. Am. Mission Bd. of the Southern Baptist
Convention, Inc., 966 F.3d 346, 351 (5th Cir. 2020),
petition for cert. filed, (U.S. Feb. 23, 2021) (No. 201158) (reversing district court’s dismissal under
ecclesiastical abstention doctrine).
B. Resolving allegations of fraud or other
tortious conduct outweighs competing
First Amendment interests and supports
the exercise of jurisdiction.
The Court’s ecclesiastical abstention decisions have
repeatedly suggested that allegations of “fraud” or
“collusion”—i.e., tortious conduct (here, breach of

14
fiduciary duty, RICO, and misappropriation of
assets)—might warrant a judicial forum, overriding
competing interests that the ecclesiastical abstention
doctrine otherwise protects. This Court first suggested
the possibility of such an exception in Gonzales v.
Roman Catholic Archbishop of Manila, noting that the
ecclesiastical abstention doctrine bars judicial review
of religious decisions “[i]n the absence of fraud,
collusion, or arbitrariness.” 280 U.S. 1, 16 (1929). This
Court later refined that statement and dispensed with
judicial review of church decisions for arbitrariness.
Milivojevich, 426 U.S. at 713. But that makes sense:
reviewing a religious decision for arbitrariness compels
the court to inquire “into the procedures that canon or
ecclesiastical law supposedly requires the church
judicatory to follow.” Id.
Reviewing a decision for tortious conduct, however,
is a different matter. In doing so, the court does not
scrutinize the challenged conduct against the backdrop
of church doctrine or religious texts. It simply
examines whether fraud or another tort taints the
challenged conduct. Since Milivojevich, this Court has
continued to acknowledge the possibility of a fraud-orcollusion exception. See Jones, 443 U.S. at 609 n.8
(“There is no suggestion in this case that the decision
of the commission was the product of ‘fraud’ or
‘collusion.’”).

15
C. Uncertainty abounds among the lower
courts because this Court has never held
whether the fraud-or-collusion exception
exists.
Although this Court has hinted at an exception for
fraud or other tortious conduct, it has never held that
this exception exists or applied it. It is still true that
“[n]o decision of this Court has given concrete content
to or applied the ‘exception.’” Milivojevich, 426 U.S. at
712. So uncertainty abounds about the doctrine’s
jurisdictional barriers. The Sixth Circuit, for example,
has speculated that judicial review may be allowed “for
fraud or collusion of the most serious nature
undermining the very authority of the decision-making
body.” Hutchinson v. Thomas, 789 F.2d 392, 395 (6th
Cir. 1986). And the Eleventh Circuit acknowledged
that this Court “left open the possibility that civil
courts might engage in marginal civil court review
under the narrow rubrics of fraud or collusion when
church tribunals act in bad faith for secular purposes.”
Crowder v. Southern Baptist Convention, 828 F.2d 718,
725 n.18 (11th Cir. 1987) (internal quotation marks
and citation omitted).
Few courts have applied the fraud or collusion
exception, although Ambellu v. Re’ese Adbarat Debre
Selam Kidist Mariam, 387 F. Supp. 3d 71, 81 (D.D.C.
2019), is one such case. In Ambellu, the district court
found that some of the plaintiffs’ claims fell under the
fraud exception to the ecclesiastical abstention doctrine
and therefore did not justify abstention. Id. at 81. In
that case, a group of parishioners alleged that some of
their co-congregants formed a secret committee to “take

16
over control of the Church.” Id. (citation omitted). One
Sunday, one of the leaders of the secret committee
announced the dismissal of all church board members
and then appointed an interim board that assumed
control of the church and its money and property. As
Judge McFadden explained, the parishioners’ civil
RICO claims “do not ‘turn on the resolution by civil
courts of controversies over religious doctrine and
practice.” Id. at 79 (quoting Presbyterian Church, 393
U.S. at 449). Instead, those claims “involve the ‘narrow
rubrics of ‘fraud’ or ‘collusion’ that may permit
‘marginal civil court review’ when ‘church tribunals act
in bad faith for secular purposes.’” Id. (quoting
Milivojevich, 426 U.S. at 713). So the court chose to
exercise jurisdiction and decide those claims on the
merits, rather than dismiss them under the
ecclesiastical abstention doctrine.
Yet Ambellu is an aberration. Although nearly
every federal circuit has acknowledged this Court’s
reference to a fraud or collusion exception to the
ecclesiastical abstention doctrine, no federal appellate
court has ever applied that exception. Puri v. Khalsa,
a Ninth Circuit decision that bears many similarities to
this case, highlights the lower courts’ uncertainty about
the scope of the ecclesiastical abstention doctrine. 844
F.3d 1152, 1168 (9th Cir. 2017). Like this case, Puri
also involves a dispute arising from the death of a
spiritual leader, Yogi Bhajan. Id. at 1155. Yogi Bhajan
created and controlled many business and nonprofit
entities through a nonprofit corporation. Before he
died, Yogi Bhajan established a separate nonprofit
religious corporation, which would act as the successor
legal organization to—and control the assets of—the

17
nonprofit corporation.
The religious corporation
included a board of directors, and membership in that
board was conditional on the prospective member’s
“living, and participating in the affairs of the Sikh
community, in a manner consistent with the teachings
and values of [Yogi Bhajan].” Id. at 1155. After Yogi
Bhajan died, his wife and three children were excluded
from the nonprofit religious corporation’s board
meetings, so they sued several of Yogi Bhajan’s
business associates. Id. at 1156. The plaintiffs accused
Yogi Bhajan’s business associates of improperly
excluding them from the board meetings—in violation
of state corporate law—and sought a judgment that all
four plaintiffs be appointed to the board. Although the
plaintiffs asked the Ninth Circuit to reach the merits
of their claims under the fraud or collusion exception,
the Ninth Circuit concluded it could resolve the dispute
under neutral principles of law and thus declined to
address whether the fraud or collusion exception exists.
Id. at 1168.
Still more federal appellate courts have expressed
uncertainty whether they can exercise jurisdiction
under a fraud or collusion exception to the
ecclesiastical abstention doctrine. The Second Circuit
was likewise uncertain in this case. Pet. App. 7 (“In
Milivojevich, the U.S. Supreme Court noted the
possibility of an exception for fraud or collusion when
church tribunals act in bad faith for secular
purposes.”). See also Askew v. Trs. of Gen. Assembly of
Church of the Lord Jesus Christ of the Apostolic Faith,
Inc., 684 F.3d 413, 418 (3d Cir. 2012) (“[C]ivil courts
accept decisions of the highest religious decision-maker
as binding fact, so long as those decisions are not

18
tainted by fraud or collusion.”); Bell v. Presbyterian
Church (U.S.A.), 126 F.3d 328, 331 (4th Cir. 1997)
(noting possibility of “marginal civil court review” for
fraud or collusion); Young v. N. Ill. Conf. of United
Methodist Church, 21 F.3d 184, 187 n.3 (7th Cir. 1994)
(“Milivojevich merely leaves open, but does not
endorse, the possibility that limited review would be
available in cases of fraud or collusion.”); Kaufmann v.
Sheehan, 707 F.2d 355, 359 (8th Cir. 1983)
(“Milivojevich did not foreclose marginal civil court
review under the narrow rubrics of fraud or collusion
when church tribunals act in bad faith for secular
purposes.”) (internal quotation marks and citation
omitted). This Court should resolve that uncertainty
by formally recognizing—and applying here—an
exception to the ecclesiastical abstention doctrine for
allegations of fraud or other tortious conduct.
D. Mr. Moon’s allegations of tortious conduct
support exercising jurisdiction, and the
Second Circuit erred by treating the fraudand-collusion exception as an afterthought.
This Court can eliminate that uncertainty here by
holding that the ecclesiastical abstention doctrine does
not bar judicial review when the complaint plausibly
alleges fraud or other torts within a religious
organization. This petition allows this Court to resolve
that an exception for fraud, collusion, or related
tortious conduct exists, heeding Justice Rehnquist’s
warning that unconditional abstention would ignore
obvious injustice and permit lawlessness.
Ecclesiastical abstention is a Court-created
doctrine. It only follows that this Court should clarify

19
the scope of that doctrine and formally recognize an
exception to which it has repeatedly referred in prior
decisions. This Court should hold that the First
Amendment permits judicial review when a plaintiff
alleges fraud or other tortious conduct within a
religious organization.
The Second Circuit erred when it brushed aside Mr.
Moon’s allegations of tortious conduct, dishonesty, and
collusion, noting that the exception might only apply
when a “religious entity engaged in a bad faith attempt
to conceal a secular act behind a religious
smokescreen.” Pet. App. 7. But Mr. Moon has alleged
exactly that. Indeed, Hak Ja Han’s scheme to wrest
control of the Family Federation and retaliate against
Mr. Moon for exposing her misdeeds is exactly the type
of conduct that supports exercising jurisdiction. Mr.
Moon alleges specific facts about that scheme,
including that Hak Ja Han and her co-conspirators:
• Pressured Mr. Moon into resigning as President
of HSA-UWC (Korea) under the false promise
that he would remain Rev. Moon’s permanent
successor;
• Coerced Mr. Moon to move to the United States
to resolve a leadership dispute at HSA-UWC
(USA) and later removed him from that role; and
• Retaliated against Mr. Moon by suspending him
as International President of the Family
Federation after Mr. Moon exposed corruption
and self-dealing by Family Federation leaders.

20
By declining to exercise jurisdiction, the trial court
and the Second Circuit not only deprived Mr. Moon of
a forum to correct Hak Ja Han’s misdeeds. They also
signaled that would-be perpetrators of tortious conduct
will avoid judicial scrutiny by cloaking their decisions
under the guise of religion. See Milivojevich, 426 U.S.
at 726 (Rehnquist, J., dissenting) (“If the civil courts
are to be bound by any sheet of parchment bearing the
ecclesiastical seal and purporting to be a decree of a
church court, they can easily be converted into
handmaidens of arbitrary lawlessness.”). This Court
should grant the petition to correct—and
eliminate—that perception.
E. This fundamentally secular dispute
presents none of the doctrinal questions
that commonly warrant ecclesiastical
abstention.
Unlike this Court’s other ecclesiastical abstention
decisions, this case does not turn on questions of
church doctrine, which is even more reason to recognize
an exception for fraud or other tortious conduct. In
Milivojevich, for example, this Court described at
length the Serbian Orthodox Church’s governing
structure, which includes “legislative, judicial,
ecclesiastical, and administrative” bodies. Milivojevich,
426 U.S. at 699. And this Court reversed the Illinois
Supreme Court’s decision to second-guess the
“decisions of the highest ecclesiastical tribunals of this
hierarchical church upon the issues in dispute, and
impermissibly substitute[ ] its own inquiry into church
polity and resolutions based thereon of those disputes.”
Id. at 708. Similarly, in Jones, this Court explained

21
that abstention is proper in matters concerning
“theological controversy, church discipline,
ecclesiastical government, or the conformity of the
members of the church to the standard of morals
required of them.” Jones, 80 U.S. at 733.
But those concerns have no resonance here because
the Family Federation lacks governing documents and
judicial bodies that might otherwise resolve this
dispute. Neither Mr. Moon nor any Defendant has
asked a court to interpret Unification Church or Family
Federation doctrine or to scrutinize Hak Ja Han’s
misconduct against the backdrop of a religious text. To
the contrary, Mr. Moon has consistently argued that
the lack of church documents warrants judicial review
and that the court need only evaluate Hak Ja Han’s
misdeeds against secular principles of law.
Precisely because there is no forum within the
Unification Church to resolve disputes arising from
Rev. Moon’s death, the parties have repeatedly turned
to the courts for assistance. This time, the Family
Federation finds itself as a defendant and so,
unsurprisingly, argues for ecclesiastical abstention to
make the dispute go away. But the Family Federation
and its affiliates have also invoked jurisdiction as
plaintiffs in related lawsuits. See, e.g., Holy Spirit
Ass’n for the Unification of World Christianity v. World
Peace & Unification Sanctuary, Inc., No. 3:18-cv-01508JPW (M.D. Pa.) (pending); Family Fed’n for World
Peace v. Hyun Jin Moon, 2011-CA-003721 (D.C. Super.
Ct.) (pending). And in those lawsuits, they have either:
(1) argued vigorously against ecclesiastical abstention
(and prevailed); or (2) taken the implied position that

22
ecclesiastical abstention does not apply.3 The Family
Federation’s litigiousness underscores that there is no
other forum to resolve these disputes—and that judicial
intervention here would not impair the free exercise of
religion.
Left unreviewed, the Second Circuit’s decision
leaves the Family Federation and the Unification
Church under the leadership of people who usurped the
authority of Rev. Moon and installed themselves as
leaders based on nothing more than their personal
desires to control the organizations and assets of the
Family Federation. The fact that the defendants took
over a religious organization should not immunize their
wrongful conduct from the scrutiny of our judicial
system.

3

As Hyun Jin (Preston) Moon and UCI noted in their amicus brief
to the Second Circuit, “Family Federation is being incredibly
duplicitous by telling this Court that it cannot adjudicate Sean’s
claims that he is the spiritual leader of the Unification Church.”
Brief for Hyun Jin (Preston) Moon and UCI as Amici Curiae
Supporting Appellees, Moon v. Moon, 833 F. App’x 876 (2d Cir.
2020) (No. 20-168).

23
CONCLUSION
For these reasons, this Court should grant the
petition.
Respectfully submitted,
AARON M. HERZIG
Counsel of Record
JONATHAN G. POLAK
LYNN ROWE LARSEN
SPENCER S. COWAN
TAFT STETTINIUS & HOLLISTER LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
Phone: (513) 357-8768
Fax: (513) 381-0205
aherzig@taftlaw.com
Counsel for Petitioner
Hyung Jin “Sean” Moon

